             OFFICE OF
             INSPECTOR GENERAL
             U.S. DEPARTMENT OF THE INTERIOR

                                                                                        September 26, 2011


Memorandum

To:           Eric Eisenstein, Division Chief, Internal Control and Audit Follow-up, Office of
              Financial Management

              Keith Moore


From:


Subject:      Review of Three Recommendations from Our April 2008 Audit Report
              No. Q-IN-BIA-0005-2007 Titled "Bureau oflndian Education Background
              Investigations"
              Report No. C-VS-BIE-0006-2011

       The Office oflnspector General (OIG) has completed a verification review of three
recommendations presented in the subject audit report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. In a memorandum dated
September 11 , 2009, PFM notified OIG that the Bureau oflndian Education (BIE) had provided
closure documentation to sufficiently implement recommendations 1, 4 and 5 as of August 13,
2009. PFM closed the report in the Departmental tracking system.

Background

        Our April 2008 audit report, "Bureau of Indian Education Background Investigations"
(Report No. Q-IN-BIA-0005-2007), made five recommendations designed to ensure that
employees and other individuals who have regular contact with, or control over, children at
Indian education facilities have had the required background checks. Based on the response
received from the Assistant Secretary - Indian Affairs (AS-IA) to the draft report, OIG
considered BIE's proposed action plans sufficient to consider all five recommendations to be
resolved. However, because implementation of the identified plans would be completed in the
future, Recommendations 1, 4, and 5 were not considered fully implemented. As a result, OIG
referred recommendations 1, 4, and 5 of the report to the Assistant Secretary for Policy,
Management and Budget for tracking and implementation in a memorandum dated September 4,
2008.




                        Office of Audits, Inspections, and Evaluations I Lakewood, CO
Scope and Methodology

       The scope of this review was limited to determining whether the BIE took action to
implement the three report recommendations. To accomplish our objective, we reviewed the
supporting documentation BIE submitted to PFM and additional documentation requests from
OIG relating to each of the three recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have been corrected. As a result,
this review was not conducted in accordance with the "Government Auditing Standards" issued
by the Comptroller General of the United States.

Results of Review

       Our current review found that BIE implemented all of the recommendations.

Recommendation 1: Identify and immediately initiate appropriate background checks on all
individuals working at BIE operated facilities without a security file or without documentation
supporting they have a) an FBI fingerprint check report, b) undergone a complete
background/character investigation, and c) had all issues in their background properly
adjudicated.

Action Taken: The AS-IA's response, dated April17, 2008, stated that the Center for Personnel
Security (CPS) would no longer approve requests for expedited screenings and would follow
policies that require FBI background fingerprint checks prior to hiring, with the results
maintained in the applicant's official personnel file. All requests for expedited screenings would
require approval from the BIE Director, Associate Deputy Director, or Assistant Deputy
Director. According to the response, CPS had developed a request form and established written
procedures that incorporate some preliminary approval criteria including the minimum
requirement of a FBI fingerprint check. In addition, CPS was to initiate expedited background
investigations on the six persons identified, by OIG, as having no record of an investigation.

         On August 13, 2009, the AS-IA's Office oflntemal Evaluation and Assessment informed
PFM that a reconciliation ofBIE employee and background files was completed on January 7,
2009. This reconciliation was performed to ensure all active BIE employees had been subjected
to an investigation. An employee roster of 4,104 employees was provided by the BIE Human
Resources Office and background investigations were completed for all of the employees. The
Special Assistant to the BIE Director stated that BIE Human Resources provided an employee
roster to CPS in June 2011 which identified 4,230 current BIE employees. CPS staff verified that
background investigations were completed for 4,230 BIE employees as of June 2011. Further,
reinvestigations are being conducted yearly by CPS to ensure all positions designated as having
child care duties within BIE are reinvestigated every five years, as required by the Code of
Federal Regulations (25 CFR 63). A list ofBIE employees is generated from the CPS data base
by the servicing security specialist for their assigned areas of responsibility (by Line
Office/School). Reinvestigation notices are sent to the employee to notify the employee of the



                                                 2
5-year reinvestigation requirement and to direct them to complete background information
forms. Reinvestigations are then conducted.

        The Special Assistant to the BIE Director also provided OIG with data received and
certified by the Education Line Officers of completed background checks, adjudications, and the
number of further investigations required for their regional location. This listing includes
investigations at non-BIE facilities.

      Based on the statements and data provided by the Special Assistant to the Director, BIE,
we conclude that Recommendation 1 is resolved and implemented.

Recommendation 4: Develop and implement (a) a plan to ensure that all individuals working at
non-BIE operated facilities have undergone complete, appropriate background investigations and
(b) procedures to ensure that all facilities receiving Departmental funding have implemented and
conducted appropriate background investigations for all individuals working with students. As
required by the Indian Child Protection and Family Violence Prevention Act, ensure the
background investigations conducted by the non-BIE operated facilities are no less stringent than
those implemented by BIA/BIE.

Action Taken: The Acting Director, BIE issued a memorandum dated January 28, 2008, and
directed the Education Line Officers/Grant Officers to conduct a 100% review of tribally
controlled school employee folders to ensure background investigations have been conducted
and any issues adjudicated. This task was to be completed by March 31, 2008.

         A review checklist for non-BIE school employee background investigations was
developed and implemented. The purpose of this review checklist is to ensure that tribally
operated grant and contract schools receiving Federal funding adhere to certain Federal
investigation requirements. As part of the grant conditions for tribally controlled schools, the
Tribally Controlled Personnel Security Program (TPSP) obtains information from the individuals
who will be responsible for conducting employee background investigations. BIE, in partnership
with Personnel Security Consultants, Inc. (PSC), conducted training for both BIE operated
schools and tribally controlled schools from May 12-14, 2008. BIE and PSC will provide
technical assistance to tribally controlled schools to ensure a background investigation program
is fully implemented.

        Background investigation reviews were completed at 90 non-BIE schools and the review
of the remaining 30 schools were to be completed by September 30, 2009. As provided under
Recommendation 1, the Special Assistant to the BIE Director provided OIG with data received
and certified by the Education Line Officers of completed background checks, adjudications, and
the number of further investigations required for their regional location. This listing includes
investigations at non-BIE facilities.

      Based on the documents and data provided by the Special Assistant to the BIE Director,
we conclude that Recommendation 4 is resolved and implemented.




                                                3
Recommendation 5: Develop and implement procedures to hold non-BIE operated facilities
receiving Departmental funding accountable to adhere to the minimum background investigation
standards. Consequences for noncompliance should include suspending, canceling, or revoking
Departmental funding.

Action Taken: In an April17, 2008 memorandum, the AS-IA's response stated that the BIE will
develop a policy and implement procedures to hold all tribally controlled schools, receiving
federal funding, responsible for adhering to the minimum background investigation standards.
All tribally controlled schools will be notified of the new policy and procedures and informed of
BIE's intent on ensuring that all background investigations and adjudications are completed.

        As previously stated under Recommendation 4, a review checklist for non-BIE school
employee background investigations was developed and implemented. The purpose of this
review checklist is to ensure that tribally-operated grant and contract schools receiving Federal
funding adhere to certain Federal investigation requirements. As part of the grant conditions for
tribally-controlled schools, the Tribally Controlled Personnel Security Program (TPSP) obtains
information from the individuals who will be responsible for conducting employee background
investigations. In addition, grant language on BIE's ability to review background investigation
information was changed to specifically allow BIE access to the information.

         BIE, in partnership with PSC, conducted training for both BIE operated schools and
tribally controlled schools from May 12-14, 2008. Additional background investigation training
was provided by TPSP during July, August and December 2009. Most recently, BIE conducted
contract/grant school administrative training in Albuquerque, New Mexico, in July 2011.

        In lieu of a Corrective Action Plan, as stated in the AS-IA's response, BIE provided OIG
with an excerpt from Public Law 107-110, dated January 8, 2002. Public Law 107-110 provides
for Section 109 (relating to reassumption) ofthe Indian Self-Determination and Education
Assistance Act of 1975 to apply to grant applications. Section 109 allows BIE to rescind a
contract or grant agreement and resume control or operation of the program, activity, function or
service if the tribal organization's performance under such contract or grant agreement involves
1) endangerment of the health, safety or welfare of any persons, or 2) gross negligence or
mismanagement in the handling or use of funds provided to the tribal organization under such
contract or grant agreement. For the school year 2011-2012, the BIE Administration Office has
emailed grant documents to Education Program Administrators/Grants Officers which require an
assurance statement that all BIA, tribal, grant contract and self-governance programs will comply
with existing Federal laws pertaining to background investigations.

      Based on the documents and data provided by the Special Assistant to the BIE Director,
we conclude that Recommendation 5 is resolved and implemented.

Conclusion

       We informed the Special Assistant to the BIE Director ofthe results of this review on
 September 7, 2011. Based on the results ofthis review, OIG offered to convene an exit
 conference with BIE officials. BIE chose to receive this final report without an exit conference.


                                                 4
cc:   Nancy Thomas, Audit Liaison, Department of the Interior
      Alexandra Lampros, Liaison Officer, Office of the Secretary
      Michael Oliva, Audit Liaison Officer, AS-IA
      Jackie Cheek, Special Assistant to the BIE Director, Bureau of Indian Education




                                              5
